                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                 OFFICE OF INSPECTOR GENERAL




                            FINAL REPORT:

                 ADMINISTRATION OF PAYMENTS
                   RECEIVED UNDER THE HELP
                AMERICA VOTE ACT BY THE STATE
                 OF WASHINGTON SECRETARY OF
                            STATE

                  APRIL 30, 2003 THROUGH DECEMBER 31, 2007




Report No.
E-HP-WA-05-08
NOVEMBER 2008
                                 U.S. ELECTION ASSISTANCE COMMISSION
                                          OFFICE OF INSPECTOR GENERAL
                                        1225 New York Ave. NW - Suite 1100
                                              Washington, DC 20005



                                                                                 November 17, 2008

Memorandum

To:        Thomas Wilkey
           Executive Director

From:      Curtis W. Crider
           Inspector General

Subject:   Final Audit Report - Administration of Payments Received Under the Help America
           Vote Act by the State of Washington Secretary of State
           (Assignment Number E-HP-WA-05-08)

        We contracted with the independent certified public accounting firm of Clifton Gunderson
LLP (Clifton Gunderson) to audit the administration of payments received under the Help America
Vote Act (HAVA) by the State of Washington Secretary of State (SOS). The contract required that
the audit be done in accordance with U.S. generally accepted government auditing standards.
Clifton Gunderson is responsible for the attached auditor’s report and the conclusions expressed
therein.

        In its audit of the SOS, Clifton Gunderson concluded that the SOS accounted for and
expended HAVA funds in accordance with the HAVA requirements and complied with the
financial management requirements established by the U.S. Election Assistance Commission. The
SOS also complied with section 251 requirements. However, we did not include a determination of
whether the SOS and its subgrantees met the requirements for maintenance of a base level of state
outlays because the Commission is reviewing its guidance on the applicability of the maintenance
of a base level of state outlays to the SOS’s subgrantees

        Since the report does not contain any recommendations, we are not requesting a response.

       The legislation, as amended, creating the Office of Inspector General (5 U.S.C. § App.3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented. Therefore, this
report will be included in our next semiannual report to Congress.

        If you have any questions regarding this report, please call me at (202) 566-3125.
     PERFORMANCE AUDIT REPORT

ADMINISTRATION OF PAYMENTS RECEIVED
  UNDER THE HELP AMERICA VOTE ACT
               BY THE
        STATE OF WASHINGTON

 April 30, 2003 Through December 31, 2007


       UNITED STATES ELECTION
       ASSISTANCE COMMISSION
                                                   TABLE OF CONTENTS




                                                                                                                               PAGE

EXECUTIVE SUMMARY .............................................................................................................. 1

BACKGROUND............................................................................................................................ 2

AUDIT OBJECTIVES ................................................................................................................... 2

SCOPE AND METHODOLOGY ................................................................................................... 3

AUDIT RESULTS ......................................................................................................................... 3

APPENDICES

Appendix A: Audit Methodology ............................................................................................... 5
                             U.S. Election Assistance Commission
             Performance Audit of the Administration of Payments Received Under the
                       Help America Vote Act by the State of Washington


EXECUTIVE SUMMARY

Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General to conduct a performance audit of the Washington
Office of the Secretary of State (SOS) for the period April 30, 2003 through December 31, 2007
to determine whether the SOS used payments authorized by Sections 101, 102, and 251 of the
Help America Vote Act of 2002 (HAVA or the Act) in accordance with HAVA and applicable
requirements; accurately and properly accounted for property purchased with HAVA payments
and for program income, and met HAVA requirements for Section 251 funds for an election fund
and for a matching contribution. We did not include a determination of whether the SOS and its
subgrantees met the requirements for maintenance of a base level of state outlays because the
Commission is reviewing its guidance on the applicability of the maintenance of a base level of
state outlays to the SOS’s subgrantees.

In addition, the Commission requires states to comply with certain financial management
requirements, specifically:

      •    Comply with the Uniform Administrative Requirements For Grants And Cooperative
           Agreements With State And Local Governments (also known as the “Common Rule”) as
           published in the Code of Federal Regulations 41 CFR 105-71.

      •    Expend payments in accordance with cost principles for establishing the allowance or
           disallowance of certain items of cost for federal participation issued by the Office of
           Management and Budget (OMB) in Circular A-87.

      •    Submit detailed annual financial reports on the use of Title I and Title II payments.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Our audit concluded that the SOS accounted for and expended HAVA funds in accordance with
the requirements mentioned above for the period from April 30, 2003 through December 31,
2007, except for the determination of whether the SOS and its subgrantees met the
requirements for maintenance of a base level of state outlays which were specifically omitted
from our scope of audit work as explained above.

11710 Beltsville Drive, Suite 300
Calverton, MD 20705-3106
tel: 301-931-2050
fax: 301-931-1710                                       1
www.cliftoncpa.com                   Offices in 17 states and Washington, DC
BACKGROUND

The Help America Vote Act of 2002 created the Commission to assist states and insular areas
with the improvement of the administration of Federal elections and to provide funds to states to
help implement these improvements. HAVA authorizes payments to states under Titles I and II,
as follows:

    •   Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
        uniform and nondiscriminatory election technology and administration requirements,
        improving the administration of elections for Federal office, educating voters, training
        election officials and poll workers, and developing a state plan for requirements
        payments.

    •   Title I, Section 102 payments are available only for the replacement of punch card and
        lever action voting systems.

    •   Title II, Section 251 requirements payments are for complying with Title III requirements
        for voting system equipment; and for addressing provisional voting, voting information,
        statewide voter registration lists, and voters who register by mail.

Title II also requires that states must:

    •   Have appropriated funds “equal to 5 percent of the total amount to be spent for such
        activities [activities for which requirements payments are made].” [Section 253(b)(5)].

    •   “Maintain the expenditures of the State for activities funded by the [requirements] payment
        at a level that is not less than the level of such expenditures maintained by the State for
        the fiscal year ending prior to November 2000.” [Section 254 (a)(7)].

    •   Establish an election fund for amounts appropriated by the state “for carrying out the
        activities for which the requirements payment is made,” for the Federal requirements
        payments received, for “such other amounts as may be appropriated under law,” and for
        “interest earned on deposits of the fund.” [Section 254 )(b)(1)].

AUDIT OBJECTIVES

The objectives of our audit were to determine whether the State of Washington, Office of the
Secretary of State:

    1. Used payments authorized by Sections 101, 102, and 251 of the Help America Vote Act
       (HAVA) in accordance with HAVA and applicable requirements;

    2. Accurately and properly accounted for property purchased with HAVA payments and for
       program income;

    3. Met HAVA requirements for Section 251 funds for an election fund and for a matching
       contribution. We did not determine whether the SOS met the requirement for
       maintenance of a base level of state outlays because the Commission is reviewing its
       guidance on the applicability of the maintenance of a base level of state outlays to
       subgrantees of the SOS.


                                                 2
In addition, to account for HAVA payments, the Act requires states to maintain records that are
consistent with sound accounting principles that fully disclose the amount and disposition of the
payments, that identify the project costs financed with the payments and other sources, and that
will facilitate an effective audit. The Commission requires states receiving HAVA funds to
comply with certain financial management requirements, specifically:

    1. Comply with the Uniform Administrative Requirements For Grants And Cooperative
       Agreements With State and Local Governments (also known as the “Common Rule”) as
       published in the Code of Federal Regulations at 41 CFR 105-71.

    2. Expend payments in accordance with cost principles for establishing the allowance or
       disallowance of certain items of cost for federal participation issued by the Office of
       Management and Budget (OMB) in Circular A-87.

    3. Submit detailed annual financial reports on the use of Title I and Title II payments. 1

SCOPE AND METHODOLOGY

We audited the HAVA funds received and disbursed by the SOS from April 30, 2003 through
December 31, 2007.

Funds received and disbursed from April 30, 2003 (program initiation date) to December 31,
2007 (56-month period) are shown below:

                                         FUNDS RECEIVED
   TYPE OF           EAC            STATE         INTEREST          TOTAL            FUNDS              DATA
   PAYMENT         PAYMENT          MATCH          EARNED         AVAILABLE        DISBURSED            AS OF


       101          $ 6,098,449      $       0      $ 259,047       $ 6,357,496      $     6,357,496   12/31/2007
       102            6,799,430              0         453,187         7,252,617           6,321,236   12/31/2007
       251           47,195,971       2,485,877       4,231,120      53,912,968           29,795,455   12/31/2007


                    $60,093,850      $2,485,877     $4,943,354      $67,523,081          $42,474,187   12/31/2007


Our audit methodology is set forth in the Appendix.




AUDIT RESULTS

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable


1 EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and 251 funds. For
Sections 101 and 102, reports are due on February 28 for the activities of the previous calendar year. For Section
251, reports are due by March 30 for the activities of the previous fiscal year ending on September 30.




                                                        3
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for the determination of whether the SOS and its subgrantees met the requirements for
maintenance of a base level of state outlays which were specifically omitted from our scope of
audit work as explained above, we concluded that the SOS accounted for and expended HAVA
funds in accordance with the requirements mentioned above. This includes compliance with
section 251 requirements for an election fund.

                               ****************************************

We provided a draft of our report to the appropriate individuals of the State of Washington Office
of the Secretary of State, and the United States Election Assistance Commission. We
considered any comments received prior to finalizing this report.

CG performed its work between April 14 and May 13, 2008.




Calverton, Maryland
November 6, 2008




                                                  4
                                                                                        Appendix A

                                    AUDIT METHODOLOGY


Our audit methodology included:

•   Assessing audit risk and significance within the context of the audit objectives.

•   Obtaining an understanding of internal control that is significant to the administration of the
    HAVA funds.

•   Understanding relevant information systems controls as applicable.

•   Identifying sources of evidence and the amount and type of evidence required.

•   Determining whether other auditors have conducted, or are conducting, audits of the
    program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed:

•   Interviewed appropriate SOS employees about the organization and operations of the HAVA
    program.

•   Reviewed prior single audit report and other reviews related to the state’s financial
    management systems and the HAVA program for the last 2 years.

•   Reviewed policies, procedures and regulations for the SOS’s management and accounting
    systems as they relate to the administration of HAVA programs.

•   Analyzed the inventory lists of equipment purchased with HAVA funds.

•   Tested major purchases and supporting documentation.

•   Tested randomly sampled payments made with the HAVA funds.

•   Verified support for reimbursements to local governments (counties, cities, and
    municipalities).

•   Reviewed certain state laws that impacted the election fund.

•   Examined appropriations and expenditure reports for state funds used to maintain the level
    of expenses for elections at least equal to the amount expended in fiscal year 2000 and to
    meet the five percent matching requirement for section 251 requirements payments.

•   Evaluated compliance with the requirements for accumulating financial information reported
    to the Commission on the Financial Status Reports, Form SF-269, accounting for property,
    purchasing HAVA related goods and services, and accounting for salaries.




                                                 5
•   Verified the establishment and maintenance of an election fund.

•   Conducted site visits of selected counties to perform the following:

        Observe equipment purchased with HAVA funds for proper accounting and
         safeguarding
        Test disbursement of HAVA funds for allowability and compliance
        Test cash receipts from SOS to ensure proper cash management
        Test procurement of voting equipment for competitive bid process
        Ensure compliance with HAVA Act.




                                                 6
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1225 New York Ave. NW - Suite 1100
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
